 

WAIVER

SUPREME COURT OF THE UNITED STATES

 

-5950

=, a
Supreme Court Case No. =

Clinton Riley y, Indiana Department of Correction, et al.
(Petitioner) (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following box!

 

{J Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature &
Date haat 9, L020

Aaron T. Craft
Mur OMs. OMrs. Miss

Office of the Attorney General

 

(Type or print) Name

Firm
Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone 317-232-4774

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Clinton Riley #111204
New Castle Correctional Facility, 1000 Van Nuys Road
New Castle, IN 47362-1041
